                              Department of Energy
                                Washington, DC 20585

                                     August 17, 2011


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Impact of Copper Thefts on the Department
                         of Energy (OIG Case No.: I11IG002)

A series of news articles during the last several months have reported increased thefts of
copper nationally, including several that have interrupted electrical distribution and
telephone service in communities across the country. These thefts have also adversely
impacted new construction projects, irrigation systems and other infrastructure projects.
In fact, the Federal Bureau of Investigation reported in an unclassified intelligence
assessment that copper thefts threaten the critical infrastructure of the United States.
Further, an October 2010 report by the Department of Energy’s Office of Electricity
Delivery and Energy Reliability entitled, “An Updated Assessment of Copper Wire
Thefts from Electric Utilities,” revealed that U.S.-based utility companies suffer several
million dollars worth of copper thefts yearly.

The Department’s laboratories, environmental remediation sites, generating stations and
other facilities have not been immune to this problem. Over the last few years, the Office
of Inspector General has successfully investigated numerous reports of copper thefts from
Department sites nationwide. These investigations involved quantities of copper ranging
from relatively small amounts to tens of thousands of pounds. Not surprisingly, the
extraordinary increase in the value of copper, nearly 50 percent in the last five years, has
made it an exceptionally attractive target.

Investigative Trends

We have recently seen a troubling increase in the number of cases involving the theft of
copper from Departmental facilities. Although some of the reported thefts occurred at
isolated Power Marketing Administration utility substations, a significant number have
also taken place at Department operating facilities and environmental management sites.
In some cases, the thefts were perpetrated by individuals with no affiliation to the
Department. We have found that, in many instances, the copper had not been secured in
any way and that at some facilities only minimal access controls were in place where
copper was stored.
                                             2


Examples of Office of Inspector General investigations in the copper theft arena include
the following:

           In New Mexico, one investigation found that up to 30,000 pounds of copper
           were stolen by Department contractor employees working at the Los Alamos
           National Laboratory’s (LANL) Manufacturing Recycling Facility (MRF).
           The MRF is a fenced facility that is locked after hours and has access controls
           in place. Four individuals were convicted. In another investigation at LANL,
           a former contractor employee was found to be stealing spools of copper wire
           from a secure storage area after his employment was terminated. The person,
           who was subsequently convicted, had gained access to the site to commit the
           thefts by using an access badge he failed to turn in when his employment was
           terminated.

           In Texas, we found that hundreds of pounds of copper were stolen by multiple
           contractor employees from the Pantex Plant. This copper was scheduled to be
           recycled and was stored at a generally secured location. However, the gate to
           the actual storage site was unsecured because other contractor employees were
           performing work in the area. The investigation resulted in two convictions.

           In Colorado, we have an ongoing copper theft investigation. The subjects,
           who have been arrested, had no affiliation with the Department. They were
           involved in multiple thefts of copper at an isolated Power Marketing
           Administration power substation. The Department lost about $50,000 in the
           value of the stolen copper and damage to Department property during the theft
           itself.

           In Washington, we are part of an ongoing multi-agency investigation
           concerning a metal recycling company purchasing stolen Government
           property, often copper. This investigation has, to date, resulted in multiple
           convictions.

           In Oregon, a Department contractor security guard admitted to stealing
           approximately $3,000 worth of copper from a Department building
           undergoing demolition. The guard, who was convicted, was in possession of
           methamphetamine at the time he was questioned about the theft.

           In Tennessee, multiple subjects with no Department affiliation cut down
           telecommunication lines located at the Oak Ridge Reservation. The lines
           were cut, rolled up and hauled away so the insulation could be removed,
           exposing the raw copper, which could then be sold. A second investigation at
           Oak Ridge revealed a contractor employee, who has been arrested, stole
           approximately 1,400 pounds of copper from a Department demolition project.
                                             3


Challenge

As long as the price of recycled copper remains high, the Department’s operations will be
vulnerable to continued theft attempts. Nonetheless, securing hanging power lines,
remote substations and materials meant for recycling from individuals intent on stealing
copper is a significant challenge, raising legitimate cost/benefit concerns. However, we
believe that there are practical, cost-effective steps that the Department can take to
manage the risk posed by those attempting to pilfer copper inventory. These include:

       (1) Sensitize the Federal and contractor workforce to the copper theft problem to
           ensure that: (i) reasonable theft preventive steps are in place and are operating
           as intended; and, (ii) apparent thefts are reported to authorities promptly;

       (2) Where areas of high vulnerability have been identified, encourage the
           implementation of enhanced inventory and access controls, and related
           safeguards, to minimize the opportunity for copper theft; and,

       (3) Work with local and regional law enforcement to ensure that Department and
           contractor managers are aware of localized threats to copper inventories and
           that there is an effective level of communication between the parties to
           maximize crime prevention efforts.

The Office of Inspector General will continue its work in this area. We look forward to
sharing additional information in the future in an effort to work with management in
addressing these issues.

Please let me know if there are any questions.
